HHS/OIG, Audit -"Pension Protection Plan Lump Sum Benefit Payments Claimed by Blue Cross Blue Shield of Massachusetts,"(A-07-03-03037)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Pension Protection Plan Lump Sum Benefit Payments Claimed by Blue Cross
Blue Shield of Massachusetts," (A-07-03-03037)
April 10, 2003
Complete
Text of Report is available in PDF format (807 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this review was to determine the allowability of claims by
Blue Cross Blue Shield of Massachusetts (Massachusetts) to Medicare for reimbursement
of lump sum benefit payments made from the Pension Protection Plan (PPP) for
the years 1987 through 1997.   We determined that Massachusetts over
claimed allowable lump sum benefit payments made from its PPP for the years
1987 through 1997.  During this period, the allowable lump sum payments
were $1,204,959.  However, Massachusetts claimed PPP lump sum payments
of $1,649,372 for Medicare reimbursement.  As a result, Massachusetts
over claimed allowable PPP lump sum payments by $444,413.  We recommended
that Massachusetts revise its claim for benefit payments made from its PPP
to eliminate the unallowable benefit payments of $444,413.  Massachusetts
agreed with our finding in total.